         Office Of Inspector General




January 26, 2006

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2005 Postal Service
         Financial Statements Audit – San Mateo Information Technology and
         Accounting Service Center (Report Number FT-AR-06-010)

This report presents the results of our audit of the financial activities and
accounting records at the Information Technology and Accounting Service Center
(IT/ASC) in San Mateo, California, for the fiscal year ended September 30, 2005
(Project Number 05BM003FT000). The Postal Reorganization Act of 1970, as
amended, requires annual audits of the Postal Service’s financial statements. This
audit was conducted in support of the independent public accounting firm’s overall audit
opinion on the Postal Service’s financial statements.

The audit disclosed that management’s financial accounting policies and procedures
conformed to accounting principles generally accepted in the U.S. and provided for an
adequate internal control structure. Additionally, accounting transactions at the San
Mateo IT/ASC impacting the general ledger account balances were fairly stated in the
national trial balance in accordance with accounting principles generally accepted in the
U.S., and conformed to the general classification of accounts on a basis consistent with
that of the previous year. Also, we did not identify any instances of noncompliance with
laws and regulations that have a direct and material affect on the financial statements.

We did not propose any adjusting journal entries to the center’s trial balance as of
September 30, 2005. However, we did identify an opportunity to improve Postal Service
operations. Specifically, the Postal Service paid certain invoices earlier than policy
requires. This item was not material to the financial statements and did not affect the
overall adequacy of internal controls. This issue represents approximately $2,800 of
questioned costs and $5,600 of funds put to better use and will be reported as such in
our Semiannual Report to Congress. During the audit, actions were taken to correct the
issue. As such, this report does not contain any recommendations.
Management reiterated its corrective action regarding banking courier services
payments. Regarding the two issues previously identified, management stated the
material accountability officer is required to perform property reviews and the Vehicle
Maintenance Facility manager is responsible for stockroom and inventory management.
Management’s comments and our evaluation of these comments are included in the
report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Lorie Siewert,
director, Financial Statements, or me at (703) 248-2300.


   E-Signed by Inspector General
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Acting Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: Richard J. Strasser, Jr.
    Keith Strange
    Vincent H. DeVito Jr.
    Elizabeth L. Novillis
    Jon T. Stratton
    Connie E. White
    John P. Hartnett
    Margaret A. Weir
    Steven R. Phelps
Fiscal Year 2005 Postal Service Financial Statements Audit –                                          FT-AR-06-010
 San Mateo Information Technology and Accounting
 Service Center


                                             INTRODUCTION
    Background                     The San Mateo Information Technology and Accounting
                                   Service Center (IT/ASC) functions as a large centralized
                                   accounting and disbursement center. The center is
                                   responsible for accounts payable,1 centralized postage
                                   payments,2 capital personal property, motor vehicles, and
                                   supply inventory.

                                   The San Mateo IT/ASC is one of three accounting service
                                   centers Postal Service-wide.3 We will issue separate
                                   financial statements audit reports for headquarters and the
                                   Eagan and St. Louis IT/ASCs. Further, in addition to the
                                   overall opinion on the U.S. Postal Service's financial
                                   statements, the Board of Governors’ independent public
                                   accounting firm — contracted to express an opinion on the
                                   financial statements — will issue separate reports on the
                                   Postal Service's internal controls and compliance with laws
                                   and regulations. Also, we will issue a separate report for the
                                   audit of the fiscal year (FY) 2005 information system
                                   controls at the Eagan, San Mateo, and St. Louis IT/ASCs.

    Objectives, Scope,             The objectives of the audit were to determine whether:
    and Methodology
                                   •   The financial accounting policies and procedures of the
                                       San Mateo IT/ASC provided for an adequate internal
                                       control structure and were in compliance with accounting
                                       principles generally accepted in the U.S.

                                   •   Accounting transactions at the San Mateo IT/ASC
                                       impacting the general ledger account balances for
                                       assets, liabilities, equity, income, expenses, and
                                       commitments of the Postal Service were fairly stated in
                                       the national trial balance in accordance with accounting
                                       principles generally accepted in the U.S.

                                   •   General ledger account balances conformed to the
                                       general classification of accounts of the Postal Service
                                       on a basis consistent with that of the previous years.

1
  Includes accounting for motor vehicle supply parts and services, bulk fuel inventory purchases, miscellaneous
disbursements, commercial credit cards, relocation, and headquarters and field payables.
2
  The Centralized Account Processing System is an electronic postage payment system that provides business
mailers a way to pay postage at multiple post offices through a centralized account.
3
  The other IT/ASCs are located in Eagan, Minnesota, and St. Louis, Missouri.



                                                          1
Fiscal Year 2005 Postal Service Financial Statements Audit –                                    FT-AR-06-010
 San Mateo Information Technology and Accounting
 Service Center



                                 •   The Postal Service was in compliance with laws and
                                     regulations that have a material and direct effect on the
                                     financial statements as a whole.

                                 To accomplish our objectives, we conducted fieldwork from
                                 November 2004 through November 2005. As part of our
                                 audit, we assessed internal controls, tested transactions,
                                 and verified account balances. We conducted this audit
                                 from November 2004 through January 2006 in accordance
                                 with generally accepted government auditing standards and
                                 included such tests of internal controls as we considered
                                 necessary under the circumstances. We discussed our
                                 observations and conclusions with management officials and
                                 included their comments where appropriate.

                                 We relied on computer-generated data from several Postal
                                 Service financial systems, including Accounting Data Mart,
                                 Accounts Payable Accounting and Reporting System II
                                 (APARS II), Accounts Payable Excellence (APEX)4
                                 Centralized Account Processing System, General Ledger,
                                 Vehicle Management and Accounting System, Material
                                 Distribution/Inventory Management System, and Property
                                 and Equipment Accounting System. We performed specific
                                 internal control and transaction tests on these systems’ data,
                                 including tracing selected financial information to supporting
                                 source records. For example, we verified that payments
                                 recorded in APARS II were supported by certified invoices
                                 and the amounts were properly applied to the appropriate
                                 general ledger accounts.

    Prior Audit Coverage         As part of our audit, we followed up on the prior year’s
                                 recommendations related to our financial statements audits
                                 at the San Mateo IT/ASC.5 Postal Service management
                                 took the following corrective actions on our
                                 recommendations:



4
 In August of FY 2005, the Postal Service replaced APARS II with the APEX system.
5
 Fiscal Year 2004 Postal Service Financial Statements Audit – San Mateo Information Technology and Accounting
Service Center (Report Number FT-AR-05-007, dated January 12, 2005). Duplicate Payment Made to Inland
Paperboard & Packaging (Report Number FT-AR-04-012, dated September 29, 2004). Fiscal Year 2003 Postal
Service Financial Statements Audit - San Mateo Information Technology and Accounting Service Center
(Report Number FT-AR-04-008, dated February 24, 2004). Accountability at the San Francisco Vehicle Maintenance
Facility (Report Number FT-AR-05-008, dated January 18, 2005).



                                                      2
Fiscal Year 2005 Postal Service Financial Statements Audit –                                       FT-AR-06-010
 San Mateo Information Technology and Accounting
 Service Center



                                 •   A monthly review process was initiated by the San Mateo
                                     IT/ASC to ensure duplicate payments are detected.

                                 •   While substantial progress was made, the following items
                                     remain unresolved. We will continue to monitor the
                                     progress and actions in these areas:

                                     o At the end of FY 2004 we were unable to determine
                                       the impact of actions taken to address previously
                                       identified issues concerning property accountability.
                                       We agreed to monitor and address property
                                       accountability during our FY 2005 audit. In FY 2005
                                       we determined that 15 of 26 sites tested did not
                                       perform required semiannual property internal
                                       reviews.6 Further, at two sites we were unable to
                                       verify property items valued at approximately $8,400.

                                     o The San Francisco Vehicle Maintenance Facility (SF
                                       VMF) showed improvement researching and
                                       reconciling inventory discrepancies. However, the
                                       following items remain outstanding:

                                         1. Discrepancies continued to exist between the
                                            number of parts held and the number of parts
                                            recorded in the inventory accounting systems.
                                            These discrepancies were not always adequately
                                            researched and reconciled.

                                         2. Personnel did not always control access to the
                                            parts stockroom.

                                         3. Personnel did not compare the Vehicle Disposal
                                            Listing to disposal documents submitted to the
                                            Postal Data Center to ensure the accuracy of the
                                            listing.




6
 Handbook AS-701, Material Management, June 2005, Section 541.28, requires the material accountability officer to
evaluate the status of property records and files by conducting an internal review (semiannually).



                                                        3
Fiscal Year 2005 Postal Service Financial Statements Audit –                                      FT-AR-06-010
 San Mateo Information Technology and Accounting
 Service Center


                                          AUDIT RESULTS
                                  The audit disclosed that management’s financial accounting
                                  policies and procedures conformed to accounting principles
                                  generally accepted in the U.S. and provided for an
                                  adequate internal control structure. Additionally, accounting
                                  transactions at the San Mateo IT/ASC impacting the
                                  general ledger account balances were fairly stated in the
                                  national trial balance in accordance with accounting
                                  principles generally accepted in the U.S. Also, we did not
                                  identify any instances of noncompliance with laws and
                                  regulations that have a direct and material effect on the
                                  financial statements.

                                  In addition, we identified an opportunity to improve Postal
                                  Service operations. This item was not material to the
                                  financial statements and did not affect the overall adequacy
                                  of internal controls.

    Banking Courier               The San Mateo IT/ASC paid approximately $1.1 million in
    Services Invoice              banking courier services invoices earlier than required by
    Payments                      Postal Service policy. Specifically, the invoices were
                                  scheduled for next business day payment7 rather than the
                                  payment due date. This occurred because invoices for
                                  banking courier services were included among invoices
                                  charged to an account scheduled for next business day
                                  payment.8

                                  We identified approximately $1.1 million on 332 invoices for
                                  which payments were made prior to the payment due dates.
                                  Using the $1.1 million, we computed the opportunity cost of
                                  not making the payments in accordance with Postal Service
                                  policy. As a result, we estimated the opportunity cost for
                                  early payments, using the cost of borrowing rate, at
                                  approximately $2,8009 of questioned costs and $5,600 of
                                  funds put to better use.

                                  Beginning in July 2004, the Postal Service programmed the
                                  Enterprise Imaging Workflow System10 to pay all invoices

7
  Coded with “next day payment terms” in APARS II.
8
  Account 52424, Services by Commercial Banks. This account is used to record commercial bank charges for
banking services provided for maintaining a postal installation bank account.
9
  We computed opportunity costs based on payments made between July 2004 and June 2005.
10
   The Enterprise Imaging Workflow System is an enterprise Web application that captures, administers, and
approves Postal Service form data and images.



                                                       4
Fiscal Year 2005 Postal Service Financial Statements Audit –                        FT-AR-06-010
 San Mateo Information Technology and Accounting
 Service Center

                                charged to account 52424, Services by Commercial Banks,
                                with next day payment terms. This deviation from
                                established payment policy was made to ensure prompt
                                payment to banks for amounts owed on closed accounts.
                                Included among the invoices charged to account 52424
                                were invoices for banking courier services.

                                Postal Service Management Instruction FM-610-2000-2,
                                Compliance with the Prompt Payment Act, dated March 7,
                                2000, states, “Payments must be made as close as possible
                                to the end of the period allowed for making payment.” The
                                management instruction also states that payments for
                                goods and services, when not agreed upon in advance, are
                                to be made in accordance with the terms of the Prompt
                                Payment Act and, in the absence of an early payment
                                discount, the payment due date is 30 days after the later of
                                the invoice received date, the supplier’s invoice date, or the
                                date the goods or services were received.

                                As a result of our audit, the San Mateo IT/ASC took
                                corrective action to ensure banking courier services invoices
                                were paid on the payment due date.

 Auditors’ Comment              Management’s actions taken corrected the issue identified in
                                the finding. Therefore, we make no further
                                recommendations concerning this issue. As part of our
                                financial statements audit, we will continue to monitor the
                                payments for banking courier services.

 Management’s                   Management reiterated that corrective action were taken
 Comments                       regarding banking courier services payments. Also,
                                regarding the two interim findings previously addressed,
                                management stated the material accountability officer is
                                required to perform property reviews, and the vehicle
                                maintenance facility manager is responsible for stockroom
                                and inventory management. Management’s comments, in
                                their entirety, are included in the appendix of this report.

 Evaluation of                  Management did not comment on approximately $2,800 of
 Management’s                   questioned costs and $5,600 of funds put to better use.
 Comments                       However, in subsequent discussions, management agreed
                                with both the categories and the amounts.




                                                     5
Fiscal Year 2005 Postal Service Financial Statements Audit –                        FT-AR-06-010
 San Mateo Information Technology and Accounting
 Service Center

                                 Additionally, while the two unresolved issues previously
                                 identified were not material to the financial statements and
                                 did not affect the overall adequacy of internal controls, we
                                 will continue to monitor them as part of our annual financial
                                 statements audit.




                                                     6
Fiscal Year 2005 Postal Service Financial Statements Audit –   FT-AR-06-010
 San Mateo Information Technology and Accounting
 Service Center


                     APPENDIX. MANAGEMENT’S COMMENTS




                                                     7
Fiscal Year 2005 Postal Service Financial Statements Audit –   FT-AR-06-010
 San Mateo Information Technology and Accounting
 Service Center




                                                     8
